Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




     TECHNICAL ASSISTANCE
             FOR
      QUALITY CHILD CARE

STATE ADMINISTRATORS’ PERSPECTIVES




                   JUNE GIBBS BROWN
                    Inspector General

                      FEBRUARY 1999
                      OEI-97-07-00420
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Region VII, Kansas City office prepared this report under the direction of James H. Wolf,
Regional Inspector General. Principal OEI staff included:

REGION                                                  HEADQUARTERS

Deborah Walden, Project Leader                          Linda Hall, Program Specialist
Ray Balandron, Program Analyst                          Ann O’Connor, Program Specialist
                                                        Barbara Tedesco, Technical Support Staff




     To obtain copies of this report, please call the Kansas City Regional Office at (816) 426-3697.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY

PURPOSE

To determine the perceptions of State child care administrators regarding technical assistance
provided under contracts with the Administration for Children and Families (ACF), Child Care
Bureau.

BACKGROUND

The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 repealed a
number of child care programs and created a single, integrated Child Care and Development
Block Grant for low-income families. Program goals include: promoting parental choice;
encouraging States to provide consumer education to parents; and helping States implement
health, safety, licensing, and registration standards. The program is currently funded for a total of
$20.9 billion for Fiscal Years 1996-2002.

The ACF contracts with outside entities to provide technical assistance funded through this Grant.
This technical assistance includes the coordination and support of regional and national
conferences, national workgroups, leadership forums, audio conference calls, and creation of the
National Child Care Information Center. In 1997, ACF further expanded its technical assistance
capabilities by creating the Child Care Technical Assistance Network.

We surveyed State child care administrators regarding their sense of the technical assistance
provided and the extent to which it meets their needs. We asked them about the format, content,
and logistical support for the technical assistance they received.

FINDINGS

Format
Large national conferences and small regional meetings are the most beneficial technical
assistance formats. Thirty-five of the 49 administrators indicate they find large national
conferences the most beneficial format because it provides them with opportunities to network
with other State administrators and learn from one another. For the same reasons, 32
administrators also find small regional meetings more beneficial than some technical assistance
formats. They comment that regional events also provide them opportunities to more directly
address State and regional issues.

The National Child Care Information Center is also a valuable technical assistance tool.
Almost all State child care administrators are familiar with the National Child Care Information
Center and the Child Care Bulletin published by the Center. They report information received
from the Center is helpful, timely, and meets some of their technical assistance needs.

Improvements are needed to make audio conference calls more effective. Administrators find
audio conference calls are not always timely and often only serve to convey information they have
already received in writing. They also comment they need more advance notice of upcoming
audio conference calls.



                                          )))))))))))
                                               iii
Content
State administrators are more satisfied with the content and focus of national conferences
than other technical assistance events. When asked to rate their satisfaction with the content
and focus of technical assistance based on whether or not the issues addressed their needs and
concerns, most administrators expressed satisfaction with national conferences. Significantly
fewer were satisfied with the content and focus of other types of technical assistance events.

Payment rates, Federal reporting, child care information systems, and public-private
partnerships top the list of State technical assistance needs. Thirty-two administrators
identified establishing payment rates to insure equal access to child care as an area in which they
are most in need of technical assistance. It is followed by Federal reporting, child care
information systems, and public-private partnerships as other areas where technical assistance is
most needed.

State administrators are unsure whether the focus of the new technical assistance network of
projects will address their individual State’s technical assistance needs. Forty-one of the 49
State administrators are aware of the new technical assistance network of projects. While they
are generally satisfied the technical assistance areas selected to make up the new network will
address national needs, they are less satisfied that the new technical assistance network will meet
individual State needs.

Logistical Support
Some logistical support areas need improvement. State administrators are generally satisfied
with hotel accommodations, meeting facilities, and travel arrangements. However, they are less
satisfied with the timeliness of agendas and advance notices of upcoming events, organization of
registration packages, accuracy and completeness of participant lists, and the timeliness of travel
reimbursement.

RECOMMENDATIONS

Our respondents obviously valued many aspects of ACF’s technical assistance program. Based
on our analysis of their responses and their own suggestions, we recommend that ACF focus on
the five following general approaches to enhance their program.

       --      Maintain and improve effective technical assistance formats. 

       --      Focus technical assistance on areas of interest to program administrators.

       --      Improve logistical support.

       --      Continue to support the National Child Care Information Center, but enhance the

               technical assistance provided by the website.

       --      Reevaluate the structure and content of audio conference calls to better meet

               State administrators’ needs.


The report contains specific suggestions for each of these areas.

AGENCY COMMENTS

The ACF concurs with our recommendations and describes various improvements in their
technical assistance initiatives. Their comments are included in Appendix D.

                                          )))))))))))
                                               iv
                             TABLE OF CONTENTS

                                                                                                                              PAGE
EXECUTIVE SUMMARY

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

FINDINGS

The Formats Used to Deliver Technical Assistance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          •	        Large National Conferences and Small Regional Meetings are the Most Beneficial
                    Technical Assistance Formats
          •         Improvements are Needed to Make Audio Conference Calls More Effective
          •         National Forums/Roundtables are Beneficial Technical Assistance Formats
          •         The Defined Focus of Targeted Technical Assistance Makes It a Beneficial Format
          •	        The National Child Care Information Center is a Valuable Technical Assistance
                    Tool

The Content and Focus of Technical Assistance Events                           ..............................8

          •         Administrators are Less Satisfied with the Focus of some Technical Assistance
          •         State Administrators’ Technical Assistance Needs
          •	        Administrators are Unsure the New TA Network of Projects Will Meet Their
                    Individual State Needs

Logistical Support . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          •         Some Logistical Support Areas Need Improvement

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

APPENDICES

A:	       Format and Content: How State Child Care Administrators Rate Their Satisfaction with
          Technical Assistance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1

B:        Technical Assistance Needs Identified by State Child Care Administrators . . . . . . . . . B-1

C:        Logistical Support: How State Child Care Administrators Rate Their Satisfaction . . . C-1

D:        Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . D-1




                                                        )))))))))))

                            INTRODUCTION

PURPOSE

To determine the perceptions of State child care administrators regarding technical assistance
provided under contracts with the Administration for Children and Families (ACF), Child Care
Bureau.

BACKGROUND

Legislation

The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 repealed the Title
IV-A child care programs (Aid to Families with Dependent Children/Job Opportunities and Basic
Skills Child Care, Transitional Child Care, and At-Risk Care) and created a single, integrated
Child Care and Development Block Grant (CCDBG) (also called the Child Care Development
Fund) for low-income families. Program goals include: promoting parental choice; encouraging
States to provide consumer education to parents; and helping States implement health, safety,
licensing, and registration standards. The program is currently funded for a total of $20.9 billion
for Fiscal Years 1996-2002.

Funding

Consolidation of all child care programs into the CCDBG dramatically increased the amount of
technical assistance funds available, from $2.6 million in FY’96 to $6.6 million in FY’97, to over
$7 million in FY’98. With the President’s new child care initiative announced in January 1998,
the ACF estimates that funding available for technical assistance could increase even more.

Technical Assistance Contracts

The ACF initially awarded a contract for technical assistance to J&E Associates for Fiscal Years
1993 and 1994. The technical assistance provided through this contract focused on certificate
payment programs mandated by newly enacted legislation. This legislation required that States
have a system capable of operating a certificate payment program in place by October 1, 1992 to
allow parental choice in the selection of child care providers. Under this contract, States and
tribes were surveyed regarding their certificate program capabilities and technical assistance
needs. In addition, regional meetings, forums, and national child care conferences were
conducted.

Upon expiration of the contract with J&E Associates, a new 3-year contract was awarded to
Trans-Management Systems Corporation (T-MSC) in cooperation with Collins Management
Consulting. With reauthorization of the Child Care and Development Block Grant in 1996, this




                                         )))))))))))
                                              1
contract was extended for an additional year. Technical assistance provided under contracts with
these companies included convening, supporting, and/or administering

       •       State, territorial, and tribal work groups,
       •       annual conferences, such as National State Child Care Administrators Conferences,
               National American Indian and Alaska Native Child Care Conferences, and national
               leadership forums focused on specific issues related to child care,
       •       regional child care conferences, and
       •       the National Child Care Information Center.

Contractor responsibilities also encompass a multitude of logistical support activities associated
with convening and coordinating workgroups and conferences, such as securing adequate meeting
facilities, hotel accommodations and presenters, compiling invitation and participant lists,
designing agendas, and providing advance notice of upcoming events. They also provide travel
arrangements and reimbursement for conference presenters, and in some instances (i.e., National
State Child Care Administrators’ Conference) for some conference attendees.

The National Child Care Information Center complements, enhances, and promotes child care
linkages and serves as a mechanism for supporting quality, comprehensive services for children
and families. To carry out their work, it provides question and answer services, an Internet and
digital library, information resources collection and dissemination, and linkages to other websites
and information sources. Questions and requests for information received by the Center come
from a variety of sources via telephone (1-800-616-2242), fax, e-mail, and contacts at meetings
and conferences. The Information Center activities include

       •	      dissemination of child care information in response to requests from States,
               Territories and Tribes, policymakers, parents, programs, organizations, child care
               providers and the public,
       •	      serving as the adjunct for the Educational Resources Information Center
               clearinghouse for child care via the National Child Care Information Center
               website, and
       •       publication of the Child Care Bulletin newsletter.

In 1997, the ACF redesigned their technical assistance approach to address emerging child care
issues and technical assistance needs. Through this redesign the ACF created a Child Care
Technical Assistance Network which was in the early stages of development at the time we
conducted this study and not evaluated. This new Network is comprised of seven independent
projects, each awarded to an individual contractor. These projects and contract awardees are the

       •	      National Child Care Information and Technical Assistance Center (Collins
               Management Consulting, Inc.),

       •	      Child Care Technical Assistance Logistics Support Project (Trans-Management
               Systems Corporation),



                                          )))))))))))
                                               2
•   Healthy Child Care America Campaign (American Academy of Pediatrics),




                           )))))))))))
                                3

       •	      Tribal Child Care Technical Assistance Center (Native American Management
               Services, Inc.),

       •       Public/Private Partnerships Project (The Finance Project),

       •	      Child Care Inclusion for Children with Disabilities United Cerebral Palsy
               Association), and

       •	      Child Care Information Systems Technical Assistance Project (SRA International,
               Inc.).

These projects will allow continuation of the National Child Care Information Center, Healthy
Child Care America Campaign, website and Child Care Bulletin. They will also play a major role
in continuing to address ongoing and emerging child care issues and technical assistance needs at
both the national and State levels through national and regional conferences, forums, and audio
conference calls.

SCOPE AND METHODOLOGY

This inspection focuses on the perceptions of State child care administrators regarding contracted
technical assistance provided by the ACF, Child Care Bureau, with block grant funds. We mailed
survey instruments to the child care administrators for each of the 50 States and the District of
Columbia. We received 49 completed survey instruments. Alaska and Alabama did not
participate in the study because their State child care administrator positions were vacant, and
none of the remaining staff have attended or are familiar enough with the technical assistance
events to respond. We also made telephone contacts as necessary to clarify responses and/or
collect additional information. No consideration was given to the length of time responding
administrators had held their current positions.

Through these surveys we solicited information on State child care administrators’ satisfaction
with the focus and format of technical assistance events, the timeliness of information provided
presenters and panel members, and their opportunities to provide input.

In addition, we asked State child care administrators a number of questions regarding the focus
and format of technical assistance events in which they have participated. We also asked them to
identify their immediate and future technical assistance needs, and their perceptions regarding
whether or not the new technical assistance network of projects will meet those needs. However,
because these projects have only recently been developed and are in the early stages of
implementation, we did not ask the administrators to rate their satisfaction with technical
assistance provided through the new network.

This is one of three inspections to focus on various entities’ perceptions of technical assistance
provided by the ACF, Child Care Bureau. In two future reports, we will address the perceptions
of those involved in child care at the community level and at the ACF regional office staff level.



                                         )))))))))))
                                              4
We conducted our review in accordance with the Quality Standards for Inspections issued by the
President’s Council on Integrity and Efficiency.




                                       )))))))))))
                                            5

                                     FINDINGS

In the appendices we provide detailed tabulation of survey responses. The following is a
summary of the results as they pertain to the format, focus, and logistical support for technical
assistance.

The Formats Used to Deliver Technical Assistance

Large National Conferences and Small Regional Meetings: The most beneficial formats
because of the networking opportunities they provide

National Conferences

Most (46) of the 49 State child care administrators have participated in National State Child Care
Administrators’ Conferences. When asked to identify formats they find most beneficial,
35 administrators indicate they find large national conferences one of the most beneficial technical
assistance formats because it provides them with opportunities to network with other State
administrators and learn from one another. In their comments, they express appreciation for the
opportunities these events have provided them to network, share information, obtain advice and
exchange ideas on alternative approaches and creative strategies, and to discuss and clarify issues.
They are also more satisfied with the issues chosen as the focus for national conferences than with
other types of technical assistance as indicated in the chart in Appendix A.

Regional Meetings/Conferences

Most (44) of the 49 administrators have also participated in regional meetings or conferences.
For the same reasons they find national conferences beneficial (i.e., opportunities for networking
and sharing information), 32 administrators indicate they find regional meetings and conferences
beneficial formats as well. However, most administrators prefer small regional meetings over
large regional events. We also note that while State administrators find regional meetings and
conferences beneficial, they are less satisfied with the focus of regional events than with national
events. They comment that State administrators and ACF regional office staff should be allowed
to determine the focus of regional events, as nationally selected issues do not always meet
individual State or regional needs.

In addition to the networking opportunities, administrators find regional events more productive
than some technical assistance formats. Regional events provide them with opportunities to more
directly address State and regional issues. They also comment that increasing the number of
regional meetings would ensure better attendance in technical assistance events because limited
travel funds often restrict travel outside a State or region. Because of such budgetary restraints,
administrators suggest that funds be made available for them to attend regional meetings, and that
technical assistance be planned in conjunction with other events to minimize expenses.




                                          )))))))))))
                                               6
Audio Conference Calls: Improvements are needed to make them more effective

The majority of child care administrators (46) have participated in audio conference calls
conducted by the technical assistance contractor. In fact, 40 administrators have participated in
3 or more calls, 30 in 5 or more, and 16 in at least 6 audio conference calls. Likewise,
40 administrators indicate they have been given opportunities to provide input into audio
conference calls, 41 to ask questions during the calls, and 37 to provide feedback after the calls.

While most administrators have participated in audio conference calls, only about half
(24) indicate they find these calls to be a beneficial format for providing technical assistance.
They comment that issues discussed on audio conference calls are “sometimes but not always
timely” and that “some calls are just a verbal repeat of information they have already received in
writing.” They believe periodic calls where administrators have an opportunity to highlight what
they are doing, or in which a panel discusses initiatives from different States, are most helpful.
Likewise, one administrator suggests the calls be used to provide more specific explanations and
information. Another advises they be scheduled immediately following national conferences held
by other organizations (i.e., American Public Human Services Association) and used to
disseminate child care information released or discussed at those conferences. However, other
administrators point out that audio conference calls are a very cost effective strategy and that the
Child Care Bureau should “keep them coming.”

When asked if they receive timely notification of upcoming audio conference calls,
39 administrators state they usually receive notification in a timely manner, but 10 others said they
did not. Their comments indicate that timely notification is received for some calls, but not
others, and that notification of upcoming calls is sometimes received only a day or two in
advance. They indicate they receive at most only 1-2 weeks notice of upcoming calls, and would
prefer more advance notice.

National Forums and Roundtables: Beneficial formats, but few administrators have
participated in these events

The Child Care Bureau also conducts national forums and roundtables through the technical
assistance contracts. These events are 1 or 2 day meetings, each focused on a specific child care
issue of national interest. To date, issues addressed by these forums include empowerment zones,
family-centered child care, consumer education, inclusion of children with disabilities, and child
care research.

While the technical assistance provided through these forums and roundtables is not directed at
State Administrators, 18 administrators have attended a national forum or roundtable, 14 of which
indicate they find this method of technical assistance to be beneficial. With the exception of the
National State Child Care Administrators’ Conferences, these administrators rate their satisfaction
levels with the focus and format of national forums/roundtables higher than other types of
technical assistance. However, of the 22 administrators that expressed an opinion about their
satisfaction with opportunities to provide input into these events, 9 were dissatisfied.



                                          )))))))))))
                                               7
)))))))))))
     8

Targeted Technical Assistance: The individually defined focus makes it a beneficial format

The Child Care Bureau provides some targeted technical assistance to individual States and
regions. These events are focused on specific areas of need and provided at the request of State
administrators and ACF regional office staff. Sixteen administrators indicate they find these
events to be one of the more beneficial formats for providing technical assistance because of the
individually defined focus of the events.

Administrators comment that targeted technical assistance should be continued, technical
assistance resources for administrators to travel to other States to exchange information and
technology should be continued, and that ACF consider grouping States by characteristics, size,
and technical assistance needs when providing technical assistance.

The National Child Care Information Center: A valuable technical assistance resource

The Information Center

Almost all (48 of 49) State child care administrators are familiar with the National Child Care
Information Center, and 32 indicate they have contacted the Center for information. In fact,
28 administrators indicate the Center is able to provide requested information, the information is
provided in a timely manner, and it is helpful.

Child care administrators indicate the majority of their requests to the Center focus on obtaining
information about child care policies and practices in other States. Through these requests they
solicit information about State plans, payment rates, parent fees, voucher systems, waiting lists,
health and safety criteria, public/private partnerships, complaint logs, and licensing. In other more
general requests, they have asked for the names of people associated with specific subject areas
and/or national organizations, information regarding litigation and legal responsibilities associated
with parental choice and in-home care, and information about sick child care, quality child care,
child care resource and referral agencies, Federal reporting requirements, and child growth charts.
Most administrators learned about the Center at one of the National State Child Care
Administrators’ conferences.

Our findings about the types of information being sought by State child care administrators is
consistent with information provided by the National Child Care Information Center regarding the
calls they receive. The Center reports that from January through April, 1998, they received 2,581
calls from a variety of sources, and averaged 675 calls per month. While only 154 of these calls
were from State agency staff, the number of calls per month from State agencies is continually
increasing, going from 29 calls in January 1998 to 51 in April 1998.

The Website

Most administrators are familiar with the National Child Care Information Center, and
25 administrators have accessed the Center’s homepage on the World Wide Web at
http://nccic.org. This website serves as a starting point for child care information available


                                          )))))))))))
                                               9
on-line through the Internet, and offers links to information about State and tribal program
activities and profiles, funding resources, national organizations, child care research, welfare
reform, health and safety, promising practices, leadership forums, conference calendars, and other
child care resources. The Center reports over 37,000 individuals visited the website in March
1998, and that each accessed an average of 6 internal pages with each visit.

Overall, comments regarding the National Child Care Information Center website are favorable.
Several administrators indicate they consider all information available through the website to be
helpful and 18 indicate they find information provided via the Internet to be one of the most
beneficial methods of providing technical assistance. Of State administrators that have accessed
the website, 14 report “occasional access” and 9 report they access the website on a “monthly”
basis. Others indicate that, although they themselves have not accessed the website, members of
their staff have, with a couple of States indicating they do not yet have Internet access.

Administrators indicate they were seeking information on links to other child care sites and
organizations, Federal regulations and reporting requirements, allocation tables, research and
statistics, data releases, quality child care, sick child care, welfare reform, and market rates when
they contacted the website. When asked for suggestions to improve the website, administrators
would like access to more State comparison data and information about upcoming events made
available through the website, and that linkages to State agency websites would also be helpful.

The Child Care Bulletin

Forty-six of the 49 State child care administrators are familiar with the Child Care Bulletin, a
newsletter published by the National Child Care Information Center on a bi-monthly basis.
Through the Center, the ACF uses this bulletin as a tool to disseminate information resources to
approximately 3,000 subscribers. It includes information on Federal requirements and program
changes, innovative approaches to quality child care, and examples of model programs.

Most administrators (43) find the issues addressed in the bulletin to be timely, and of interest to
them in meeting their needs (42). While a few administrators indicate they consider some of the
information provided in the bulletin to be “after the fact” or “dated,” most administrators’
responses are positive, including such comments as

       “I have been impressed by the professionalism of this document.”

       “I often distribute to 100-150 persons.”

       “I mail copies to each of the 92 counties and grantees in my State.”

       “Please continue to include ways to access research, studies, etc.”




                                           )))))))))))
                                                10
The Content and Focus of Technical Assistance

State administrators are more satisfied with the content and focus of national conferences
than other technical assistance events

We asked State child care administrators to rate their overall satisfaction with the content and
focus of technical assistance events based on whether or not the issues meet their needs and
concerns, and if they receive information when they need it. In response, 41 of the 49 (91
percent) administrators are satisfied with the content and focus of national conferences.
However, fewer administrators (73 to 77 percent respectively) are satisfied with the content and
focus of audio conference calls and regional meetings, as indicated in the chart in Appendix A.

State administrators indicate that assistance focused on 1) sharing information and administrative
concerns with other States, 2) Federal reporting, and 3) welfare reform has been most beneficial
in meeting their needs. Those and other technical assistance topics administrators find most (and
least) beneficial are outlined below, in the order in which they were selected.

                   Most Beneficial Technical Assistance Topics
                                                     Number of State Administrators
                                                     Who Selected Topics As:

               Topics                                Most Beneficial         Least Beneficial

       Sharing Information & Concerns                        34                      1
       Federal Reporting                                     32                      5
       Welfare Reform                                        26                      1
       School-Age Child Care                                 19                      4
       Head Start Collaboration                              17                      7
       Infant/Toddler Care                                   10                      1
       Collaboration with other agencies                     10                      5
       Inclusion of Children with Disabilities                8                      2
       Health and Safety                                      7                      4

As previously noted, Appendix A contains a complete overview of the administrators’ satisfaction
ratings regarding the focus and other aspects of technical assistance.

Payment rates, Federal reporting, child care information systems, and public-private
partnerships top the list of State technical assistance needs

We presented the administrators with a list of technical assistance issue areas and asked them to
identify those where they feel an immediate need for technical assistance. From that list,
32 administrators identified establishing payment rates to insure equal access to child care as an
area in which they are most in need of immediate technical assistance. It is followed by Federal
reporting (27), child care information systems (26), and public/private partnerships (24) as other
areas of technical assistance need.

                                         )))))))))))
                                              11
We also asked administrators what issues or subject areas they foresee as their future technical
assistance needs, and when they anticipate needing the assistance. Federal reporting and data
collection requirements topped the list of their future technical assistance needs, followed by
welfare reform and ensuring equal access to quality child care through payment rates and parent
co-payments. A summary of both the immediate and future technical assistance needs identified
by State child care administrators is outlined in Appendix B.

State administrators are aware of the new technical assistance network of projects but some
are unsure whether it will address their individual State’s technical assistance needs

To address emerging issues and child care needs, the ACF redesigned their approach to technical
assistance in 1997, creating the Child Care Technical Assistance Network. As noted in the
background of this report, this new network is comprised of seven independent projects, and was
in the early stages of development at the time we conducted this study.

Most (41) of the administrators are aware of the new “technical assistance network” of projects.
They learned about the network through their contacts with regional and central office ACF
staff, and through their participation in various technical assistance events and mailings.
While 34 (83 percent) of the administrators indicate they are satisfied the areas selected to make
up the new network will address national technical assistance needs, only 29 administrators (69
percent) are satisfied these same areas will address their specific State needs. In their comments
they expressed concern with the number of individual projects and coordination of technical
assistance provided through the network.

However, three of the new network projects focus on issue areas identified by a large number of
State administrators as areas where they need immediate and/or future technical assistance. As
stated earlier in this report, 26 administrators identified child care information systems,
24 identified public-private partnerships, and 16 identified inclusion of children with disabilities as
areas where they need immediate technical assistance. In addition, the network retains the
logistical support project, the National Child Care Information Center and the Healthy Child Care
America Campaign and establishes a separate project to address tribal needs.

Logistical Support

Some logistical support areas need improvement

State child care administrators are generally satisfied with hotel accommodations, meeting
facilities, and travel arrangements. However, they are less satisfied with the timeliness of agendas
and advance notices of upcoming events, organization of registration packages, accuracy and
completeness of participant lists, and the timeliness of travel reimbursement for travel
expenditures covered by the technical assistance contract. Most of their comments focused on




                                           )))))))))))
                                                12
the need for more advance notice of upcoming events, more timely reimbursement for travel
expenditures and better contractor telephone coverage during business hours.

A chart outlining how the State child care administrators rated their satisfaction with logistical
support is located in Appendix C.




                                          )))))))))))
                                               13
                     RECOMMENDATIONS

Our respondents obviously valued many aspects of ACF’s technical assistance program. Based
on our analysis of their responses and their own suggestions, we recommend the ACF focus on
the five following general approaches to enhance their program.

Maintain and improve effective technical assistance formats

The ACF should provide technical assistance in settings which administrators have identified as
most conducive to sharing information and learning from one another. To do that, we
recommend it

       •	      continue to hold the National State Child Care Administrators’ Conference on an
               annual basis.
       •       plan more small regional events based on state and regional needs.
       •	      provide more direct assistance to States through technology transfer and
               information exchange.
       •       group States by characteristics, size, and needs.

Focus technical assistance on areas of interest to program administrators

To meet the needs identified by State administrators, we recommend that ACF address the
following issues in future technical assistance events:

       •       Payment rates to ensure equal access to quality child care;
       •       Federal reporting and data collection;
       •       Welfare reform;
       •       Public-private partnerships; and
       •       Child care information systems.

Improve logistical support

To improve logistical support activities the ACF should ensure the contractor providing logistical
support:

       •       furnishes adequate advance notice of upcoming events;
       •	      shares event invitation and participation lists with State child care administrators
               for completeness and accuracy;
       •       makes reimbursement for travel to events in a timely manner; and
       •       provides adequate phone coverage during business hours.




                                          )))))))))))
                                               14
Continue to support the National Child Care Information Center, but enhance technical
assistance provided by it

We recommend the ACF continue to fund the National Child Care Information Center and publish
the Child Care Bulletin, and that they enhance the website by providing:

        •      administrators with more information about the website and how to use it; and
        •	     more information 1) which compares State child care practices and policies, 2)
               about upcoming national and regional meetings, and 3) to link users with State
               child care agency websites.

Reevaluate the structure and content of audio conference calls to better meet State
administrators’ needs

To better meet the needs of State administrators, we recommend ACF:

   •	    broaden the scope of audio conference calls to allow more State child care administrators
         to highlight effective practices;

   •	    use audio conference calls to summarize and discuss information provided through other
         national organizations’ conferences (National Child Care Resources and Referral
         Association, American Public Human Services Association, etc.); and

   •	    ensure State administrators receive timely notification of upcoming audio conference calls
         and/or establish a set schedule for calls.

AGENCY COMMENTS

The ACF concurs with our recommendations and describes various improvements in their
technical assistance initiatives. Their comments are included in Appendix D.




                                         )))))))))))
                                              15
                                     APPENDIX A


                                Format and Content
                     How State Child Care Administrators

                Rate Their Satisfaction with Technical Assistance

                                          Satisfied                    Dissatisfied         Total
                                Number of        Percent of    Number of      Percent of    Number of
                                Respondents      Respondents   Respondents    Respondents   Respondents

National Conferences
 - Focus/Content                41               91            4              9             45
 - Presenters                   39               93            3              7             42
 - Opportunities for Input      23               74            14             26            31

Regional Meetings/Conferences
General Meetings:
 - Focus/Content                23               77            7              23            30
 - Presenters                   25               74            9              26            34
 - Opportunities for Input      26               74            9              26            35
School-Age Child Care
 - Focus/Content                24               77            7              23            31
 - Presenters                   25               83            4              17            30
Inclusion of Children
 w/Disabilities
 - Focus/Content                12               75            4              25            33
 - Presenters                   12               63            7              37            19

Audio Conference Calls
 - Focus/Content                33               73            12             27            45
 - Presenters/Panel Members     36               80             9             20            45
 - Opportunities for Input      24               75             8             25            32

Targeted Technical Assistance
 - Presenters                   10               77            3              23            13

Overall Satisfaction w/Focus of Technical Assistance
 - Information Meets Needs
     and Concerns               37               77            11             23            48
 - Information is Received
     When Needed                43               90            15             31            48

Anticipated Satisfaction with the New Technical Assistance Network of Projects
 - Meets Overall Needs          34               83             7             17            41
 - Meets Specific State Needs   29               69            13             31            42


                                              )))))))))))
                                                  A-1
                                     APPENDIX B



                     Technical Assistance Needs

               Identified by State Child Care Administrators


Number of State Administrators
                                       Technical Assistance Focus/Subject Areas
Immediate Needs         Future Needs

         32                      4     Payment Rates to ensure Equal Access to Quality Care

         27                      7     Federal Reporting and Data Collection Requirements

         26                      3     Child Care Information Systems

         24                      4     Public/Private Partnerships

         21                      1     Using Technology to Conduct Business
                                           Electronic Transfer of Benefits or Funds (16)
                                           Internet (9)
                                           Intranet (4)

         20                      2     Infant/Toddler Care

         18                      0     Head Start Child Care Collaboration

         17                      5     Welfare Reform and Temporary Assistance for Needy Families

         16                      3     Children with Disabilities

         16                      4     Provider Training Programs

         14                      4     Provider Accreditation Programs

         13                      0     Subsidized Child Care

         12                      0     Health and Safety

         12                      0     Federal Regulations, Policies, and Procedures

         12                      0     Child Care Resource and Referral Programs

         11                      1     School-Age Child Care

          7                      0     State/Tribal Coordination

                                 1     *Consumer Education

                                 1     *Licensing




                                       )))))))))))
                                           B-1
*	   These subject areas were not included in the selection list presented regarding immediate TA needs, but
     were identified by administrators as areas where they will need future assistance.




                                               )))))))))))
                                                   B - 2

                               APPENDIX C



                      LOGISTICAL SUPPORT 

                     How State Child Care Administrators
                           Rate Their Satisfaction




                                 Satisfied                   Dissatisfied             Total
                          Number of      Percent of    Number of      Percent of    Number of
                          Respondents    Respondents   Respondents    Respondents   Respondents



Advance notice of
 upcoming events          33             75            11             25            44

Agendas and event
 instructions             31             66            16             34            47

Registration packages     36             77            11             23            47

Participant lists         37             80            9              20            46

Hotel accommodations      43             91            4              9             47

Meeting facilities        42             88             6             12            48

Travel arrangements       42             89            5              11            47

Travel reimbursement      31             74            11             26            42




                                        )))))))))))
                                            C-1
7APPENDIX D


AGENCY COMMENTS





    )))))))))))
        D - 1

)))))))))))
    D - 2

)))))))))))
    D - 3

)))))))))))
    D - 4

)))))))))))
    D - 5

)))))))))))
    D - 6

)))))))))))
    D - 7

)))))))))))
    D - 8

)))))))))))
    D - 9

